Ti

C@OQCKLE

2311 Douglas Street ; E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B rt efs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-708

GOLD VALUE INTERNATIONAL TEXTILE, INC.,
D/B/A FIESTA FABRIC,
Petitioner,
v.
SANCTUARY CLOTHING, LLC, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
FOR AMERICAN SOCIETY OF MEDIA PHOTOGRAPHERS, INC., CALIFORNIA SOCIETY
OF ENTERTAINMENT LAWYERS, AMERICAN PHOTOGRAPHIC ARTISTS, AND
ASSOCIATION OF REAL ESTATE PHOTOGRAPHERS, JOINED BY NATIONAL PRESS
PHOTOGRAPHERS ASSOCIATION AND GRAPHIC ARTIST’S GUILD IN SUPPORT OF
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 5911 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 3rd day of January, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska . LEG ,
My Commission Expires Nov 24, 2020 ,

Notary Public Affiant

 

39276
